U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

August 13, 2021

Jorge Rojas v. Federal Aviation Administration,
S.Ct No. 21-133

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 29, 2021
and placed on the docket on August 2, 2021. The government’s response is due on
September 1, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 1, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian H. Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0133
ROJAS, JORGE ALEJANDRO
FEDERAL AVIATION ADMINISTRATION

ROBERT M. LOEB
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8400
RLOEB@ORRICK.COM
NAOMI JEAN SCOTTEN
ORRICK, HERRINGTON & SUTCLIFFE LLP
51 WEST 52ND STREET
NEW YORK, NY 10019
212-506-5116
NSCOTTEN@ORRICK.COM

